                                             CLOSEOUT MEMORANDUM




         We investigated an allegation that an NSF program specialist1had engaged in unprofessional
         behavior against a pa&cipant2 in an NSF-Sponsored Summer Research ~ r o ~ r a m Upon
                                                                                            .'
         reviewing the allegations, program solicitation, and correspondence at issue, we determined that
         these issues were more appropriately within the purview of NSF management, that NSF
         management had adequately responded to the issues raised, and that no further OIG action is


         Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
